TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Invoice Audit of the Taxpayer Burden
                          Simulation Models Contract –
                               TIRNO-03-D-00001



                                            March 2006

                              Reference Number: 2006-10-060




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 22, 2006


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Invoice Audit of the Taxpayer Burden Simulation
                             Models Contract – TIRNO-03-D-00001 (Audit # 200510014)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Taxpayer
 Burden Simulation Models Contract – TIRNO-03-D-00001. The overall objective of this review
 was to determine whether selected invoices submitted and paid under contract number
 TIRNO-03-D-00001 were appropriate and in accordance with the contract’s terms and
 conditions.

 Synopsis
 Contract expenditures represent a significant outlay of IRS funds. The Treasury Inspector
 General for Tax Administration has made a commitment to perform audits of these expenditures.
 We initiated this audit to determine whether the invoices submitted by the contractor and paid by
 the IRS were accurate, supported, and allowable.
 Our review resulted in the identification of questionable charges of $1,937.61, which consisted
 of unsupported and unallowable travel costs and unsupported other direct charges.
 As part of this audit, we also examined contract correspondence files and interviewed the
 Contracting Officer, the Government Task Manager, and the Contracting Officer’s Technical
 Representatives to determine whether the contractor’s performance was satisfactory. Based on
 these limited auditing procedures, nothing came to our attention that would lead us to believe
 there were significant problems with the deliverables associated with the task orders included in
 our tests.
                    Invoice Audit of the Taxpayer Burden Simulation Models
                                  Contract – TIRNO-03-D-00001




Recommendation
We recommended the Director, Procurement, ensure the appropriate Contracting Officer reviews
the identified questionable charges of $1,937.61 and initiates any recovery actions deemed
warranted.

Response
The IRS agreed with our recommendation. The Director, Procurement, responded that the
contractor was able to provide adequate supporting documentation in the amount of $1,433.29,
inclusive of general and administrative expenses, for questioned expenses. The contractor has
agreed to reimburse the Federal Government the remaining balance of $504.32. Management’s
complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




                                                                                                2
                            Invoice Audit of the Taxpayer Burden Simulation Models
                                          Contract – TIRNO-03-D-00001




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Questionable Contract Charges and Invoice Verification Process ...............Page 2
                    Recommendation 1:..........................................................Page 4

          Contract Deliverables Were Acceptable.......................................................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 6
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Outcome Measure ................................................................Page 10
          Appendix V – Management’s Response to the Draft Report .......................Page 11
                        Invoice Audit of the Taxpayer Burden Simulation Models
                                      Contract – TIRNO-03-D-00001




                                            Background

In December 2002, the Internal Revenue Service (IRS) awarded contract number
TIRNO-03-D-00001, an indefinite-delivery, indefinite-quantity time-and-materials contract
which addresses one of the IRS’ strategic objectives to reduce taxpayer burden. The contractor
served as an expert to develop complex micro-simulation models to measure the prefiling, filing,
and postfiling taxpayer burden of small business income taxes, employment taxes, selected
excise and specialty taxes, and other taxes. The development of the models required technical
support and expertise in the areas of econometrics, economics, survey design and administration,
statistics, tax administration, tax legislation, and tax policy.
The contract was awarded for a base year of December 18, 2002, to December 17, 2003, and
4 option periods. If all options are exercised, the contract has a total award value of
approximately $30 million and would extend through December 17, 2007. According to the IRS
Request Tracking System,1 as of April 19, 2005, the IRS had awarded 5 task orders with a total
value not to exceed approximately $10 million and had recorded approximately $5.7 million in
transactions against these task orders.
Because contract expenditures represent a significant outlay of IRS funds, the Treasury Inspector
General for Tax Administration made a commitment to perform audits of these expenditures.
This audit was designed to determine whether amounts paid by the IRS under this contract were
accurate, supported, and allowable through a review of contractor invoices and supporting
documentation.
This audit was performed at the Office of Procurement in the Office of Agency-Wide Shared
Services in Oxon Hill, Maryland, and the contractor’s facility in Fairfax, Virginia, during the
period February through November 2005. Opinions expressed in this report pertain only to the
task orders and invoices included in our judgmental sample.
The audit was conducted in accordance with Government Auditing Standards. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




1
  The Request Tracking System is a web-based application that allows IRS personnel to prepare, approve, fund, and
track requests for the delivery of goods and services. The System also allows for electronic acceptance of items
delivered and provides an electronic interface with the Integrated Financial System (the IRS’ administrative
financial accounting system) for payment processing.
                                                                                                          Page 1
                           Invoice Audit of the Taxpayer Burden Simulation Models
                                         Contract – TIRNO-03-D-00001




                                         Results of Review

Questionable Contract Charges and Invoice Verification Process
We examined supporting documentation obtained from the IRS Office of Procurement, as well
as documentation received directly from the contractor, for a sample of 21 transactions. The
transactions were selected using a judgmental sampling method (see Appendix I for details).
The sampled transactions related to 19 invoices and involved 4 task orders. The 4 task orders
had award amounts totaling approximately $8 million and associated transactions of
approximately $5.6 million. The 21 transactions had processing dates between March 2003 and
January 2005 and involved $734,454.22 in IRS payments.
The primary expenses claimed by the contractor were employee compensation, travel (including
associated general and administrative expenses), and other direct costs.

Questionable contract charges
Based on our audit tests, we identified questionable charges of $1,937.61 as shown in Table 1.
We provided details of these charges to the contractor, who agreed with our findings, and the
IRS.
                              Table 1: Schedule of Questionable Charges
                                        Questioned Activity                  Questionable
                                                                              Charges
                              Unsupported Travel Charges                         $1,197.40
                                                                    2
                              Unallowable Travel Charges (net)                    ($147.81)
                              Related Travel General and                           $206.77
                              Administrative Expenses
                              Unsupported Other Direct Costs                       $681.25
                              Total                                              $1,937.61
                            Source: Treasury Inspector General for Tax Administration
                            analysis of 21 transactions processed by the IRS.

All the questionable charges related to either travel charges (including related general and
administrative expenses) or other direct costs. The majority of the travel expenses were

2
    The reference to net signifies that both positive and negative amounts were identified.
                                                                                               Page 2
                        Invoice Audit of the Taxpayer Burden Simulation Models
                                      Contract – TIRNO-03-D-00001



questioned because there were no receipts provided to support airfare, lodging, and car rental
expenses. The other direct costs were questioned due to the lack of supporting documentation.
The Federal Travel Regulation (FTR)3 requires airline, lodging, and car rental receipts to be
provided and reimbursement to be based on the actual expense cost not to exceed the per diem
rate or other required cost limitation policies. Additionally, the FTR requires that any travel
expenses in excess of $75 must be supported by a receipt when claimed on a travel voucher.
The Federal Acquisition Regulation (FAR)4 stipulates a contractor is responsible for accounting
for costs appropriately and for maintaining records, including supporting documentation,
adequate to demonstrate that costs claimed have been incurred. The FAR also provides that
costs shall be allowed to the extent they are reasonable, allocable, and allowable under the FAR.

Invoice verification process
Contracts may be entered into and signed on behalf of the Federal Government only by
Contracting Officers (CO). The COs have the authority to administer or terminate contracts and
make related determinations and findings. The COs are responsible for ensuring performance of
all necessary actions for effective contracting, ensuring compliance with the terms of the
contract, and safeguarding the interests of the United States in its contractual relationships.
The requesting program office nominates a Contracting Officer’s Technical Representative
(COTR), who is the CO’s technical expert and representative in the administration of a contract
or task order. Usually, the CO will appoint the COTR by issuing a signed letter of appointment
tailored to meet the needs of each contract. The CO and COTR are required to jointly review all
appointed duties.
Prior to April 28, 2004, the Department of the Treasury Contracting Officer’s Technical
Representatives Handbook was the primary guidance for the COTRs.5 Part IV of the Handbook
stated, in part, the COTRs are responsible for reviewing and approving invoices and vouchers on
contracts. It also stated the COTRs will receive instructions regarding involvement in the review
and approval of invoices and vouchers from the CO. Attachment E of the Handbook also
offered, as a sample responsibility for time-and-materials contracts, that the COTRs are
responsible for reviewing and signing off on the invoices to attest to their accuracy. Seven of the
21 transactions we reviewed during this audit were subject to this guidance.
On April 28, 2004, the IRS replaced the Handbook guidance, in part, with a reference to the
Office of Federal Procurement Policy document A Guide to Best Practices for Contract
Administration (the Guide). The Guide offers, as a practical technique, that the COTRs

3
  41 C.F.R. Chapter 301 (2005).
4
  48 C.F.R. pt 1-53 (2002).
5
  Department of the Treasury Acquisition Circular No. 02-01, dated April 28, 2004, deleted references to the
Contracting Officer’s Technical Representatives Handbook. The Circular also stated the Department of the
Treasury would no longer maintain the Handbook.
                                                                                                               Page 3
                     Invoice Audit of the Taxpayer Burden Simulation Models
                                   Contract – TIRNO-03-D-00001



reviewing vouchers under cost-reimbursement contracts should review, among other things,
contractor timecards to help assess the reasonableness of direct labor costs. The Guide also
contains directions to review major cost categories such as travel, supplies, other direct costs,
and subcontractor costs to again determine the reasonableness of the claimed costs. Although
the Guide, which was published in October 1994, does not include a specific reference to
time-and-materials contracts, we believe it is reasonable to infer that administration requirements
for cost-reimbursement contracts would also apply to time-and-materials contracts.
The COTR advised us that he or she relies on the Government Task Managers (GTM) to review
the invoices for accuracy of the work performed. The GTM we interviewed indicated he or she
was involved in the day-to-day oversight of the work done by the contractor. Further, the GTM
generally reviewed the invoices to determine the reasonableness of hours worked and travel
expenses claimed.
We did not identify any type of verification performed of actual hours worked, such as a review
of contractor-provided payroll or related payment records. We also did not identify any type of
verification performed to ensure travel and other direct costs were properly supported by
receipts.
We did not identify a significant amount of questionable charges on the invoices we reviewed,
notwithstanding the incomplete invoice verification process described above. We will continue
to include a review of the IRS’ invoice verification process in future contract invoice audits and,
if warranted, recommend improvements to the process.

Recommendation
Recommendation 1: The Director, Procurement, should ensure the appropriate CO reviews
the identified questionable charges of $1,937.61 and initiates any recovery actions deemed
warranted.
       Management’s Response: The Director, Procurement, responded that the contractor
       was able to provide adequate supporting documentation in the amount of $1,433.29,
       inclusive of general and administrative expenses, for questioned expenses. The
       contractor has agreed to reimburse the Federal Government the remaining balance of
       $504.32.

Contract Deliverables Were Acceptable
We examined contract correspondence files and interviewed the CO, COTR, and GTM to
determine whether the contractor’s deliverables were acceptable for the four task orders related
to our sampled invoices. In general, this contract provided support services for the IRS to reduce
taxpayer burden. In doing so, the contractor provided the following deliverables to the IRS:


                                                                                             Page 4
                    Invoice Audit of the Taxpayer Burden Simulation Models
                                  Contract – TIRNO-03-D-00001



   •   Briefing on Tax Engine Design.
   •   Briefing on Behavioral and Decision Model.
   •   Briefing on Attribute Methodology.
   •   Final Methodology and Sampling Plan Reports.
   •   Draft Taxpayer Questionnaire.
   •   Paid Professional Study Design Document.
   •   Final Questionnaire and Pretest Report.
   •   Briefing on Forecasting Module.
   •   Safeguard Procedures Report/Security Briefing.
Based on our limited auditing procedures, nothing came to our attention that would lead us to
believe there were significant problems with the deliverables associated with the task orders
included in our test.




                                                                                          Page 5
                        Invoice Audit of the Taxpayer Burden Simulation Models
                                      Contract – TIRNO-03-D-00001



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether selected invoices submitted and paid
under contract number TIRNO-03-D-00001 were appropriate and in accordance with the
contract’s terms and conditions. To accomplish our objective, we:
I.      Analyzed the Internal Revenue Service’s (IRS) invoice verification process prior to
        certifying payment to the contractor.
        A. Interviewed the Contracting Officer and Contracting Officer’s Technical
           Representative to confirm our understanding of the invoice verification process.
        B. Documented invoice processing risks including accuracy, supportability, and
           allowability of invoice charges and concluded as to the overall control environment.
        C. Interviewed IRS personnel involved in the administration of the contract to identify
           any concerns that existed regarding the contractor, its billing practices, or any specific
           invoices.
II.     Verified whether invoice charges submitted by the contractor and paid by the IRS were
        accurate, supported, and allowable.
        A. Identified a sample selection universe of recorded Request Tracking System1
           transactions as of April 19, 2005. This universe contained 58 transactions related to
           5 task orders processed between Fiscal Years 2002 and 2005. Further, the universe
           consisted of approximately $10 million in awards and $5.7 million in processed
           transactions.
             From this universe, we judgmentally selected 21 transactions that contained labor,
             travel, and other direct costs. The judgmentally selected transactions related to 4 task
             orders, which had award amounts totaling approximately $8 million and associated
             transactions of approximately $5.6 million. Specifically, the sampled transactions
             had processing dates between March 2003 and January 2005 and involved
             $734,454.22 in IRS payments. We believed this sampling method would provide
             sufficient evidence to accomplish our audit objective and would result in acceptable



1
  The Request Tracking System is a web-based application that allows IRS personnel to prepare, approve, fund, and
track requests for the delivery of goods and services. The System also allows for electronic acceptance of items
delivered and provides an electronic interface with the Integrated Financial System (the IRS’ administrative
financial accounting system) for payment processing.
                                                                                                          Page 6
                    Invoice Audit of the Taxpayer Burden Simulation Models
                                  Contract – TIRNO-03-D-00001



          management corrective action without the need for a precise projection of sample
          results.
       B. Obtained supporting documentation for the invoices in the sample from the IRS and
          contractor and performed the following tests:
          1. Verified the mathematical accuracy of the invoices and supporting
             documentation.
          2. Traced invoice charges to supporting documentation.
          3. Verified whether invoice charges were actually paid by the contractor though
             examination of payroll records and extracts from the contractor’s financial
             records.
          4. Verified whether invoice charges were allowable under the terms and conditions
             of the contract.
III.   Verified through interviews with responsible officials and reviews of project files
       whether there was acceptable existence of deliverables, as stipulated in the contract, for
       the invoices included in our sample.




                                                                                            Page 7
                   Invoice Audit of the Taxpayer Burden Simulation Models
                                 Contract – TIRNO-03-D-00001



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Thomas J. Brunetto, Audit Manager
Gary D. Pressley, Lead Auditor
Richard E. Louden, Auditor
Rashme Sawhney, Auditor




                                                                                       Page 8
                   Invoice Audit of the Taxpayer Burden Simulation Models
                                 Contract – TIRNO-03-D-00001



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Director, Procurement OS:A:P




                                                                        Page 9
                           Invoice Audit of the Taxpayer Burden Simulation Models
                                         Contract – TIRNO-03-D-00001



                                                                                              Appendix IV

                                         Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•      Questioned Costs – Potential; $1,937.61 (see page 2).

Methodology Used to Measure the Reported Benefit:
We examined invoices and supporting documentation obtained from the Internal Revenue
Service’s (IRS) Office of Procurement, as well as documentation received directly from the
contractor, to verify charges for a judgmental sample of 21 transactions. We selected our sample
from a universe of approximately $5.7 million in transactions processed by the IRS. The
21 transactions involved $734,454.22 in IRS payments.
Our review resulted in the identification of questionable charges of $1,937.61. Specifically,
these charges consisted of $1,197.40 in unsupported travel charges, $681.25 in unsupported other
direct costs, $206.77 in unallowable general and administrative expenses, and ($147.81) in net1
unallowable travel charges.




1
    The reference to net signifies that both positive and negative amounts were identified.
                                                                                                   Page 10
      Invoice Audit of the Taxpayer Burden Simulation Models
                    Contract – TIRNO-03-D-00001



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 11
Invoice Audit of the Taxpayer Burden Simulation Models
              Contract – TIRNO-03-D-00001




                                                    Page 12
